<html>
<title> - LUXURY JETS AND EMPTY PRISONS: WASTEFUL AND DUPLICATIVE SPENDING AT THE DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
LUXURY JETS AND EMPTY PRISONS: WASTEFUL AND DUPLICATIVE SPENDING AT THE 
                         DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2013

                               __________

                           Serial No. 113-23

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-314                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857746264637f727b673974787a39">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
KEITH ROTHFUS, Pennsylvania

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
SPENCER BACHUS, Alabama              Virginia
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TRENT FRANKS, Arizona                JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUL LABRADOR, Idaho                 CEDRIC RICHMOND, Louisiana

                     Caroline Lynch, Chief Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             APRIL 10, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     2
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     5

                               WITNESSES

The Honorable Tom A. Coburn, M.D., a U.S. Senator from the State 
  of Oklahoma
  Oral Testimony.................................................     6
  Prepared Statement.............................................    13
Lee J. Lofthus, Assistant Attorney General for Administration, 
  U.S. Department of Justice
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33
The Honorable Michael E. Horowitz, Inspector General, U.S. 
  Department of Justice
  Oral Testimony.................................................    39
  Prepared Statement.............................................    41
David C. Maurer, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office
  Oral Testimony.................................................    52
  Prepared Statement.............................................    54
Thomas A. Schatz, President, Citizens Against Government Waste
  Oral Testimony.................................................    71
  Prepared Statement.............................................    74
Richard W. Stanek, President, Major County Sheriff's Association 
  (MCSA)
  Oral Testimony.................................................    82
  Prepared Statement.............................................    85

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Tom A. Coburn, M.D., a U.S. 
  Senator from the State of Oklahoma.............................     9


LUXURY JETS AND EMPTY PRISONS: WASTEFUL AND DUPLICATIVE SPENDING AT THE 
                         DEPARTMENT OF JUSTICE

                              ----------                              


                       WEDNESDAY, APRIL 10, 2013

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr. (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Gohmert, 
Coble, Bachus, Forbes, Franks, Gowdy, Labrador, Scott, Conyers, 
and Richmond.
    Staff present: (Majority) Sarah Allen, Counsel; Allison 
Halataei, Parliamentarian & General Counsel; Alicia Church, 
Clerk; and (Minority) Ron LeGrand, Counsel.
    Mr. Sensenbrenner. The Subcommittee will come to order.
    The Chair recognizes himself for an opening statement.
    Like all American families, the Federal Government has been 
forced to make cuts. Under sequester, the Justice Department 
must cut approximately $1.6 billion from its annual budget of 
over $27 billion per year. The Department has had had over a 
year to prepare, but rather than doing the difficult work of 
identifying and eliminating waste and duplication, the Attorney 
General has told Congress that the only way it can meet its 
obligation is to furlough tens of thousands of employees.
    The furloughs undermine the Department's ability to conduct 
its core mission and are happening in the midst of obvious 
waste, fraud, and abuse at the Department. For example, one law 
enforcement agency spends $116,000 over an 18-month period to 
buy high-end sunglasses. Hundreds of Washington bureaucrats 
were given government cars to commute to work. The Department 
spent $600,000 on event planners for just five conferences.
    The Department has almost $100 million in appropriated 
funds sitting unused for the Bullet Proof Vest Partnership 
Program. The Department has 56 separate grant programs for 
victims assistance, 41 programs for forensics, and 33 programs 
for juvenile justice. The Department spent $165 million on a 
prison in Illinois that now sits empty with four other empty 
prisons awaiting activation.
    The Attorney General blames sequestration for why five 
Federal prison facilities, including the infamous Thompson 
prison, sit empty and, therefore, useless. Is the better 
question not, why does the Department own five prisons it 
cannot afford to operate?
    The Department spent $165 million to purchase the Thompson 
prison last year while sequestration was already looming. This 
money could have been used to prevent furloughing the guards 
the Department has at its operating prisons. Luckily, it 
appears the Department has now found the $150 million needed to 
keep the guards in the prison and the prisoners off the 
streets.
    Law enforcement agencies also appear to be staffing their 
Washington, D.C. headquarters by reassigning agents from other 
parts of the country on temporary duty. The Department does 
this by using an overly generous definition of ``temporary,'' 
extending these assignments for up to 18 months. In addition to 
their full salaries, these employees receive enormous 
additional financial benefits from the taxpayers, including 
$224 a day for housing costs and $71 a day for food. This adds 
up to at least $8,600 per month per employee above and beyond 
their salaries. An employee taking advantage of an 18-month 
long temporary assignment can receive a bonus of $154,800 in 
food and housing subsidies.
    I am very dismayed that the Department would furlough 
thousands of employees, including Federal agents in the field, 
instead of cutting costs by eliminating temporary duty 
assignments at headquarters. And I intend to learn more about 
this practice from the Department.
    The Justice Department fulfills a critical mission: 
enforcing Federal law, defending the interests of the United 
States, ensuring public safety against threats, foreign and 
domestic, and ensuring the fair and impartial administration of 
justice for all Americans. And yet our review of the Justice 
Department's recent spending uncovered many examples, such as 
the ones I have just mentioned, where the Department is not 
being a good steward of taxpayer money.
    Government waste, duplicative spending, and inefficient 
operations are always cause for concern. This is more true than 
ever in light of our current economic environment in which the 
country faces a national debt of $16 trillion and growing. We 
must identify and reduce unnecessary spending in the Department 
of Justice so it can focus on its critical law enforcement and 
national security functions. I look forward to hearing from our 
witnesses today about how the Department can achieve greater 
cost savings in a responsible way.
    And it is now my pleasure to recognize for his opening 
statement, the Ranking Member of the Subcommittee, the 
gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. And I welcome this 
hearing and discussion about spending in the Department of 
Justice and ways of ensuring that taxpayer dollars are being 
spent in a manner that is both effective and efficient. Each of 
us on this panel, regardless of party, is committed to 
eliminating wasteful spending and unnecessary, duplication and 
overlap.
    I welcome our first witness, our former colleague, Dr. 
Coburn, who has been working very hard to find wasteful 
spending. Every dollar we spend we find that is wasted can be 
reallocated to things that are actually doing some good.
    The title would suggest that there are some major issues to 
be addressed, and I would note that many of these issues are 
already subjects of past and recent GAO and inspector general 
audits and reports. I am pleased to see that we will have a GAO 
and Department of Justice IG as well as DoJ officials and other 
witnesses to shed light on those and explain where progress has 
been made and what still needs to be done.
    On the issues GAO was asked to investigate concerning the 
Department of Justice's use of Department aircraft, the GAO 
conducted the audit as requested from March 2012 through 
February of this year in accordance with generally accepted 
government auditing standards, and found no improprieties. On 
the issue of empty prisons mentioned in this title, I expect 
Mr. Lofthus from DoJ to fully enlighten us on this issue.
    On other management issues within DoJ, both the GAO and the 
Department of Justice IG have issued reports with 
recommendations for improvement of administration and 
management of grants within DoJ. I look forward to hearing 
where DoJ is in addressing these recommendations and learning 
from other witnesses on how it might further improve its 
process.
    I am also looking forward to hearing where DoJ is on 
implementing recommendations regarding asset forfeiture 
program, an area that, Mr. Chairman, you and I and other 
colleagues have asked the GAO to review. The information I have 
received indicates that DoJ has been making progress in this 
area, but that much still needs to be done to implement the 
recommendations.
    In this environment of the sequester, we are all challenged 
to find ways to reduce spending. Where waste, fraud, and abuse, 
and unproductive duplication is found, we must eliminate it and 
put in place measures to assure that such practices do not 
reappear. However, there is no budget line designated as waste, 
fraud, and abuse, or unproductive duplication. And duplication 
and overlapping grants do not necessarily equate to duplicate 
spending.
    Simply suggesting that we cut waste, fraud, and abuse, and 
duplication is not the basis for eliminating productive 
program. Budget reductions, such as the sequester, will have an 
effect on the Department's mission.
    Mr. Chairman, I will note that since about the 1980's, 
there has been an idea around here that you can cut taxes and 
not have an effect on the budget, cut budgets and not have an 
effect on agency's ability to get something done. When you cut 
an agency's budget 10 percent, they have either got to fire 10 
percent of the people or pay all of them 10 percent less. And 
that has to have an effect on an agency's ability to fulfill 
its missions.
    Already the Department of Justice is not prosecuting as 
many cases as it could, and certainly has never prosecuted 
enough in the areas of consumer identity theft, organized 
retail theft, due to the need to prioritize other kinds of 
cases.
    So, Mr. Chairman, I appreciate our witnesses being with us 
today and look forward to being enlightened by their testimony.
    I yield back.
    Mr. Sensenbrenner. I thank the gentleman.
    The Chair recognizes the other gentleman from Virginia, the 
Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman, and thank you for 
holding this hearing. And I certainly want to welcome Senator 
Coburn because we are very interested in his contribution to 
this effort to achieve efficiency and reduce waste and 
unnecessary spending in our government agencies.
    On March 1st of this year, every Federal agency came under 
a requirement to reduce its spending across the board. In the 
days leading up to this reduction, referred to as the 
sequester, Attorney General Eric Holder dramatically warned 
Congress and the public that the Justice Department would be 
forced to make cuts that would hinder the Department's ability 
to fulfill its missions and threaten the safety of all 
Americans.
    Specifically, Holder claimed in a letter to Congress that 
in order for the Justice Department to reduce its budget by the 
required amount, which represents approximately a 6 percent 
reduction in the Department's more than $27 billion budget, DoJ 
would have to cut the equivalent of more than 1,000 of the 
Federal agents whose job it is to keep Americans safe from 
crime and threats to the homeland. Holder also warned that the 
Department would reduce Federal correctional officers by the 
equivalent of 1,300 employees, which would, to quote the 
Attorney General, ``increase the likelihood of inmate 
misconduct, violence, and other risks to correctional workers 
and inmates.''
    While I recognize that reducing an agency's budget by 6 
percent is not necessarily an easy task, I do believe that this 
can be done without ominous threats and without hampering 
critical government functions. The fact that the Department 
recently announced that it was ultimately able to find $150 
million in its budget to avoid furloughing correctional 
officers, a move that I strongly support, only helps to prove 
this point.
    After taking a close look at recent spending trends at the 
Justice Department, I am very confident that there are many 
ways that the Department can tighten its belt by rooting out 
waste and redundancy. There are many such examples, but for the 
purpose of time, I will highlight just a few of the more 
egregious examples that we have found.
    Despite clear disapproval from Congress and despite the 
fact that the Bureau of Prisons already had four empty Federal 
prisons waiting to be activated, last year the Justice 
Department spent $165 million to purchase an unused prison in 
Illinois. In addition to the initial millions that taxpayers 
nationwide paid to the State of Illinois, this unauthorized 
purchase continues to cost taxpayers tens of millions of 
dollars. It has been estimated that it will cost $6 million a 
year to secure the empty prison, and another $70 million before 
it is even operational. The enormous amount of money that was 
spent and continues to be spent on this fool's errand would 
have gone a long way toward addressing the reductions required 
by sequestration.
    The Illinois prison is just one example of a large, 
unnecessary expenditure, and there are many smaller examples 
that also quickly add up. Our review of DoJ spending showed 
that tax dollars are also used at the Department to pay for 
event planners at elaborate conferences, pizza parties, and $12 
cups of coffee, and to provide cars for Washington bureaucrats 
to simply commute between their homes and the office. This is 
not money wisely spent.
    I strongly support the mission of the Justice Department 
and the fine men and women who are working there who keep this 
country safe. However, at a time when our national debt is over 
$16 trillion, we simply cannot afford to drink $12 coffees and 
purchase prisons when others sit vacant.
    I look forward to hearing from all of our witnesses today 
about how we can root out waste and duplication at the 
Department. And I would like to particularly welcome and thank 
my former House colleague, the distinguished senator from 
Oklahoma, Dr. Coburn. We very much appreciate you making the 
trip across the Capitol to share your extensive knowledge on 
this subject.
    Mr. Chairman, I yield back.
    Mr. Sensenbrenner. Will the gentleman yield?
    Mr. Goodlatte. I would be happy to yield.
    Mr. Sensenbrenner. Yes. For how long is Dr. Coburn's visa 
on this side of the House valid for?
    Mr. Goodlatte. Well, it is dependent on how well behaved he 
is while he is over here, right?
    Mr. Sensenbrenner. Point well taken.
    The gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Sensenbrenner. This 
hearing begins with a recognition of the fact that the prisons, 
the Federal prisons, are 14 percent over capacity. It also 
begins with a recognition of the fact that maximum security 
prisons are 52 percent overcrowded. So I just wanted to begin 
my comments with some of the Judiciary Committee 113th Congress 
over the top hearing titles. I think this is going to become a 
book maybe someday or at least an essay.
    Get a load of this: Subcommittee on Regulatory Reform, 
hearing on the Obama Administration's Regulatory War on Jobs, 
the Economy, and America's Global Competitiveness. Or what 
about this: Mismanagement at the Civil Rights Division of the 
Department of Justice. Or what about this: Hearing on Luxury 
Jets and Empty Prisons: Wasteful and Duplicative Spending at 
the Department of Justice. And then we find out with the 
preliminary investigation that the ``luxury jets,'' quote/
unquote, referred to in the hearing title are government-owned 
aircraft that the Attorney General and the FBI director must 
use for travel abroad regardless of the purpose of the trip. 
And if it is not official, they have to make reimbursement. 
Ladies and gentlemen--well, here is another title: ``Release of 
Criminal Detainees by U.S. Immigration and Customs Enforcement: 
Policy or Politics.'' Now, I think this is going down in the 
history books.
    Now, there is a shortage of prison space. Let us begin with 
that and consider that there are other truly constructive 
measures to rein in spending, and there is duplication. Some of 
it can be explained, some of it can be improved, and that is 
the only part of the hearing that I support to have any valid 
rationality to reality.
    Now, what we need to do is find out what the Department is 
doing and how we can help. The fact of the matter is that none 
of this has ever been raised before at any Judiciary Committee 
or Subcommittee level. And so it is in that sense that I 
support the title and the discussion here with just a modest 
degree of skepticism. And I, too, welcome the doctor and the 
senator to this hearing.
    Mr. Chairman, I yield back my time.
    Mr. Sensenbrenner. I thank the gentleman for his comments. 
You know, let me say that I think whether the Justice 
Department is efficiently using its resources or not is a 
constitutional function of oversight. And I am happy that we 
are having this hearing, and I am happy that I have been able 
to bring to the attention of the public where I think there is 
wasteful and duplicative spending, and why the Administration 
seems to be hitting hot button items rather than doing its job 
and giving the taxpayers their money's worth.
    Without objection, other Members' opening statements will 
be made part of the record.
    And without objection, the Chair will be authorized to 
declare recesses during the votes on the House floor.
    We have two very distinguished panels today. Our witness on 
the first panel is Senator Tom Coburn, M.D., United States 
senator representing Oklahoma. He is a Member of the Senate 
Select Committee on Intelligence and the Committee on Banking, 
Housing, and Urban Affairs. Dr. Coburn serves as the Ranking 
Member of the Homeland Security and Government Affairs 
Committee and previously was a Member of the Judiciary 
Committee.
    His priorities in the Senate include reducing wasteful 
spending and balancing the budget. He has offered amendments to 
eliminate the funding for the Bridge to Nowhere, the Woodstock 
Museum in New York, and countless other special interest 
earmarks sponsored by Members of both parties. He has also 
worked to make government more accountable and transparent. In 
2006, he teamed up with then Senator Barack Obama to create 
www.usaspending.gov, an online database of all Federal 
spending.
    Prior to his election to the Senate, he represented 
Oklahoma's 2nd congressional district in the House from '95 to 
2001. He graduated with an accounting degree from Oklahoma 
State and received his medical degree from the Oklahoma Medical 
School.
    Dr. Coburn, thank you for joining us.

        TESTIMONY OF THE HONORABLE TOM A. COBURN, M.D., 
           A U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Coburn. Thank you, Mr. Chairman, and it is great to 
see my former colleagues and those that I did not get an 
opportunity to serve with. I appreciate the opportunity to come 
here.
    Regardless of what has been said, the important thing that 
has not happened in my years in the Senate is significant 
oversight of how we spend money. And we can be critical of 
every agency in terms of how they spend money. It is not 
necessarily easy. We do not always give them the resources to 
manage it properly.
    But the real problem for us is us. And I have a written 
testimony I will submit, but let me just talk about us for a 
minute.
    Our tendency to put a parochial benefit into the things we 
do in Congress has driven us to lead to all the duplication 
that the GAO has identified. Four years ago I went to the GAO 
and I went to the Congressional Research Service, and I said I 
want to see every program in the Federal Government, and they 
told me it was impossible to do it. And even today, only one 
agency knows all their programs, only one, and that is the 
Department of Education. They actually publish all their 
programs.
    The second thing that I would note is we have ignored the 
enumerated powers of the Constitution. Very well meaning. We 
intend to do well. But you mix ignoring the enumerated powers 
and then you add a parochial benefit to our individual States 
or districts, and you have a formula for disaster in terms of 
creating programs that multiply duplicate one another.
    So the first report that we got 2 years ago from GAO, and 
this was put into the debt limit increase that you all were 
kind enough to allow through the House that mandated GAO do 
this, and I want to compliment them. They have done a heck of a 
great job in terms of looking at the things we as a Congress 
directed them to do.
    The problem, again I will go back, is us. This is the 
second real hearing I know of in the House that actually is 
addressing duplication. The first was the Education and 
Workforce, and you all passed out the Skills Act, which 
consolidated some 39 programs under the jurisdiction of the 
Labor Workforce or Education and Workforce and 6 effective job 
training programs.
    So the problem is us. And what I would say is I did not 
vote for the sequester. I think it is dumb. It is like your 
wife asking you to go out and weed the flower bed, and you have 
set the lawn mower on scalp, and you mow down the flowers, the 
bushes, and the weeds in the flower bed. That is what we are 
doing right now.
    But the problem is not the government agencies. The problem 
is us. We have not done effective oversight. We have not 
demanded metrics. And too often what we have done is written 
programs, especially grants, that have a parochial interest 
that totally ignores the enumerated powers. And so when you 
look at the $3.9 billion that the Department of Justice 
dispensed in 2010 through 11,000 individual grants, not one of 
them was risk based. And the assumption of our grant programs, 
besides the duplication that is there, is that they should not 
be risk based. And when they are not risk based, we are not 
going to get much benefit for them, whether we ignore the 
enumerated powers or not, whether it is really our role.
    The other point I would make is we are not very good in 
Washington of actually doing programs that actually work down 
at the local government level. Let me give you an example. We 
studied all the job training programs in my State. We went 
through and we looked at every Federal job training program 
that was operating in the State of Oklahoma. We get $189 
million a year to operate Federal job training programs.
    But we also looked at the State run programs, and here is 
what we found. Not one Federal job training program running in 
the State of Oklahoma was effective. But every State financed 
and run program was highly effective in terms of giving people 
a skill that would give them an income. So what are we doing 
with $189 million that we could actually do somewhere else that 
would actually be effective?
    So I would re-emphasize, as you oversight and look at the 
Department of Justice grants, you ought to ask what are the 
metrics on it, does it duplicate something that is already out 
there? Number three, is it really a legitimate role for the 
Federal Government?
    In my testimony you will find all the duplication, the 
waste, the COPS program, for example. Oklahoma City is the 
biggest city in Oklahoma. It is booming, very low unemployment 
rate, growing, has a lot of the same problems any other city of 
the size of a million or 2 million people. But, in fact, they 
do not take the COPS program money, except our crime rate 
reduction was equal to or below all the cities that did the 
COPS program.
    So the question is, that is an anecdotal piece of evidence. 
But as we look at all the grant programs in the Justice 
Department, what we ought to do is say, is there a role for the 
Federal Government? Can we effectively do something, and can we 
effectively manage it? And if we are going to try to do those 
things, are we going to require metrics on those programs to 
demonstrate that the dollars that were actually speny did 
something?
    Behind me are the Department of Justice grant programs, and 
what the GAO found--I mean, this is----
    Mr. Sensenbrenner. Without objection, that will be put in 
the record hopefully with large enough font so that people can 
read it.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Senator Coburn. I have a super large size that I have used 
on the Senate floor that is much larger than that, about two 
times----
    Mr. Sensenbrenner. Please give us a copy.
    Senator Coburn. Well, we will send the whole board, and you 
can pay to reduce it. That is not coming out of my budget. 
[Laughter.]
    The point I would make is there is no question the 
Department of Justice is having trouble managing these grants 
effectively. And I think they will admit that. We see the same 
institution or city or grant recipient get multiple awards from 
different grant programs within the Justice Department for 
exactly the same thing.
    You know, one easy thing that ought to come out of Congress 
is any grant program that has a grant application ought to have 
a stipulation that whoever is the grantee affirms that they are 
not getting another Federal grant for exactly the same thing 
under this grant application. You will save hundreds of 
millions of dollars the first year we do that, just by making 
them just by making them affirm that they are not getting 
another source from another within the Department.
    I guess I am out of time.
    Mr. Sensenbrenner. We do not filibuster on this side of the 
Capitol. [Laughter.]
    Senator Coburn. Well, I thank you for the opportunity. I 
hope you will take the time to read my statement--it is rather 
lengthy, but if you get into duplication, you will find that we 
have significant problems, and the problem is us.
    [The prepared statement of Senator Coburn follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you very much, Senator Coburn. By 
tradition when Members testify, there are no questions from the 
Committee. So we will let you off.
    Senator Coburn. I am happy to take them if you----
    Mr. Sensenbrenner. Well, we have got another panel to talk 
about that.
    Senator Coburn. Got it.
    Mr. Sensenbrenner. So we will revoke your visa and send you 
back to the other side of the Capitol.
    Will the other witnesses please come and take their seats?
    I will begin by swearing in the witnesses before 
introducing them. If you all would please rise. Raise your 
right hand.
    [Witnesses sworn.]
    Mr. Sensenbrenner. Let the record show that all of the 
witnesses have answered in the affirmative. Please be seated.
    Also let me say that without objection, all Members' 
opening statements will be placed in the record.
    Also without objection, all of the witnesses' testimony in 
their entirety will be placed in the record.
    And now I will introduce the witnesses.
    Mr. Lee Lofthus is assistant attorney general for 
administration in the Justice Management Division at the 
Department of Justice. He is the Department's chief financial 
officer and responsible for Department-wide financial 
reporting, budget formulation and execution, asset forfeiture 
fund for operational support, procurement, and debt management 
support. He also oversees the Department's libraries and 
records management facilities, human resources planning, and is 
the senior ethics official for the Department.
    Prior to his appointment, he served as the principal deputy 
attorney general and controller for the Justice Management 
Division. He has served in a variety of management positions, 
overseeing financial operations, financial policy, reporting 
and systems, and including as the Department's controller and 
deputy chief financial officer from August 2003 to May of '06, 
and director of the finance staff in the Justice Management 
Division from January of '99 to August of '03.
    He received an MBA degree from the American University in 
Washington.
    The next witness is the Honorable Michael E. Horowitz. Mr. 
Horowitz was sworn in as the fourth confirmed inspector on 
April 16th, 2012. And in this capacity, he oversees a 
nationwide workforce of approximately 450 special agents, 
auditors, inspectors, attorneys, and support staff whose 
mission is to detect and deter waste, fraud, abuse, and 
misconduct in DoJ programs and personnel, and to promote 
economy and efficiency in Department operations.
    He previously served as the commissioner of the Sentencing 
Commission and worked for the Department of Justice in the 
Criminal Division at main Justice from 1999 to 2002, first as 
deputy assistant AG and then as chief of staff. He received a 
bachelor of arts degree from Brandeis and received his law 
degree from Harvard.
    Our third witness is David Maurer. He is the director of 
the U.S. Government Accountability Office on the Homeland 
Security and Justice team. He leads the GAO's work in reviewing 
DHS and DoJ management issues. His recent work includes reports 
and testimonies on DoJ grant management, crowding in the 
Federal prison system, Guantanamo Bay detainees, nuclear 
smuggling, homeland security research and development, and DHS 
management, and immigration.
    He previously worked as acting director of the GAO's 
natural resource and environmental team where he managed work 
assessing U.S. global nuclear detection programs and 
enforcement of Federal environmental law.
    He began his GAO career in the Detroit regional office in 
1990. He received his bachelor's degree from Michigan State, 
and then his master's in public policy from the University of 
Michigan. He received a master of science in natural resource 
strategy through the Industrial College of the Armed Forces at 
the National Defense University.
    Our fourth witness is Tom Schatz, who is the president of 
the Citizens Against Government Waste, and is a lobbying 
affiliate of the Council for the Citizens Against Government 
Waste. In his capacity as president, Mr. Schatz works to 
further the mission of the CAGW to eliminate waste, fraud, 
abuse, and mismanagement in government.
    According to official OMB and CAGW estimates, 
implementation of the CAGW cost cutting and waste cutting 
recommendations has helped save the taxpayers $1.3 trillion.
    During his 26 years with the CAGW, Mr. Schatz has helped 
make the CAGW a leading government watchdog on fiscally 
conservative issues like taxes and earmarks according to the 
National Journal. He is a regularly featured guest on national 
television news programs and local news broadcasts. His 
editorials on fiscal policy have appeared in publications 
nationwide, including the New York Times and the Wall Street 
Journal.
    He received his bachelor's degree from the State University 
of New York at Binghamton and his law degree from George 
Washington University.
    Our final witness is Sheriff Richard Stanek, who is the 
27th sheriff of Hennepin County, Minnesota's largest. He was 
first sworn in on January 1, 2007, and was reelected in 2010. 
Sheriff Stanek began a 2-year term as president of the Major 
County Sheriff's Association and serves on the board of 
directors of the National Sheriffs Association, and co-chairs 
the NSA's Homeland Security Committee.
    A 29-year veteran of law enforcement, he began his career 
in the Minneapolis Police Department and rose to through the 
ranks from patrol officer, detective, precinct commander, to 
commander of criminal investigations. While a police officer, 
he was elected 5 times to the Minnesota House of 
Representatives. There he chaired the House Crime Policy and 
Finance Committee. In 2003, he was appointed by the governor as 
commissioner of public safety and director of homeland 
security.
    He earned a criminal justice degree from the University of 
Minnesota, and a master's in public administration from Hamline 
University. He completed training at the National Sheriffs 
Institute, the FBI's National Executive Institute, and 
Leadership in Counterterrorism, and the U.S. Army War College 
National Security Seminar 57th Session.
    And remember we have a green, yellow, and red light which 
is enforced more properly on people who are not familiar with 
unlimited debate like United States senators are. And I will 
first recognize Mr. Lofthus.

  TESTIMONY OF LEE J. LOFTHUS, ASSISTANT ATTORNEY GENERAL FOR 
           ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Lofthus. Thank you, Chairman Sensenbrenner, Congressman 
Scott, and Members of the Subcommittee for the invitation to 
discuss our work to reduce spending, find efficiencies, and 
save the taxpayer money. The Department of Justice takes these 
efforts very seriously, and I appreciate the opportunity to 
speak about our work this morning.
    Sound financial management is at the core of properly 
accounting for taxpayer dollars. In Fiscal Year 2012, the 
Department earned an unqualified audit opinion on its 
consolidated financial statements for the ninth consecutive 
year. I am also pleased that for the sixth consecutive year, 
the auditor's report on internal controls over financial 
reporting did not identify any material weaknesses at the 
Department level. To provide a sustainable base for future 
positive audit results, we also continue to implement the new 
unified financial management system in order to replace our 
most aged systems.
    The Department works continuously to identify savings, 
efficiencies, cost avoidances, and best practices in order to 
best leverage our scarce resources. In response to President 
Obama's executive order on promoting efficient spending, in 
Fiscal Year 2012 we exceeded our $146 million reduction goal in 
the areas of publications, travel, supplies, fleet management, 
advisory contracts, and IT devices. Spending in these areas 
decreased by $237 million compared to 2010.
    We have also taken extensive steps to limit and monitor our 
conference spending. Building upon OMB's 2011 conference 
policies, we issued detailed new guidance in June 2012 that 
places strict controls on conference planning costs, 
attendance, food approval, and reporting. This guidance was 
most recently supplemented by a January of 2013 policy placing 
restrictions on indirect costs billed to the Department.
    Our efforts to control conference spending have been 
successful. In 2011, we reduced conference expenditures by 28 
percent, spending $26 million less than in FY 2010. This past 
year in 2012, we further reduced our conference spending by 
$7.8 million, another 12 percent reduction.
    We are also cognizant of the need to identify programmatic 
duplication and overlap. After a review of overlapping drug 
enforcement related intelligence capacity, we closed the 
National Drug Intelligence Center and moved its needed residual 
functions to DEA, an action that will save about $12 million 
annually. In another example, we closed the Office of the 
Federal Detention Trustee and merged its activities into the 
Marshal Service to align detention resources with operations 
and reduce administrative costs. Where there other such viable 
opportunities, we are willing to pursue them.
    In July 2010, the Attorney General established the DoJ SAVE 
Council. Comprised of staff across Justice and from disciplines 
both in and outside financial management, the SAVE Council 
ideas have saved over $120 million through efforts such as 
reducing the cost of employee moves, posting asset forfeiture 
related notices online rather than in the print media, and an 
optimizing our use of the most favorable wireless 
communications contracts.
    In closing, the DoJ's efforts to improve its operations and 
save the taxpayer money are ongoing. We appreciate the work of 
the Office of the Inspector General and GAO in highlighting 
areas where we can make further improvements.
    I am acutely aware of the financial management challenges 
we face, particularly now in the face of sequestration. I am 
also acutely aware of the need to ensure every dollar the 
Department receives is spent wisely. Thank you for the 
opportunity to appear today and to respond to your questions.
    [The prepared statement of Mr. Lofthus follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Sensenbrenner. Thank you, Mr. Lofthus.
    Mr. Horowitz?

   TESTIMONY OF THE HONORABLE MICHAEL E. HOROWITZ, INSPECTOR 
              GENERAL, U.S. DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Mr. Chairman, Congressman Scott, 
Members of the Subcommittee. I appreciate the opportunity to 
testify today before you about the efforts of my office in 
identifying wasteful and inefficient spending at the Justice 
Department. Ensuring that taxpayer funds are used wisely has 
long been a central focus of the inspector general's work and 
our oversight, and that mission is particularly important in 
the current budgetary environment.
    It was just 1 year ago that I was sworn in as the 
Department's inspector general, and my office had undertaken a 
number of important reviews during that time. We have issued 
more than 70 audits and reports, including a review of the 
Department's handling of suspension and debarment, the FBI's 
implementation of the sentinel case management system, the U.S. 
Marshal Service management of its procurement activities, and 
the Executive Office for Immigration Review's management of 
immigration cases.
    Our Investigations Division handled more than 10,000 
complaints, resulting in dozens of arrests and convictions 
involving corruption or fraud offenses, and well over 100 
additional administrative actions against Department employees. 
And we, of course, completed many high profile investigations, 
such as our reports on ATF's Operation Fast and Furious, the 
improper hiring practices in the Justice Management Division, 
the partner attorneys' improper handling of the Clarence Aaron 
clemency request, and most recently, the operations of the 
Voting Section of the Civil Rights Division.
    I am particularly proud of having appointed the first ever 
whistleblower ombudsperson at the Justice Department's 
Inspector General Office, and I am committed to ensuring that 
whistleblowers in the Department can step forward and report 
fraud, waste, and abuse without fear of reprisal. I have seen 
firsthand in just my year in this job the important role that 
whistleblowers play in advancing our mission to address 
wasteful spending and to improve the Department's operations. 
We will continue to do all we can to be responsive to 
complaints that we receive and to ensure that any allegations 
of retaliation are promptly reviewed and appropriately 
resolved.
    While this past year has been a remarkably busy time, it is 
typical. I have learned of the extraordinary work that the 
Office of the Inspector General has produced for years. Over 
the past 10 years, we have identified nearly $1 billion in 
questioned costs, far more than the inspector general's budget 
during that same time period.
    In addition, we have identified over $250 million in 
taxpayer funds that could have been put to better use by the 
Department, and our criminal and administrative investigations 
have resulted in more than $100 million in criminal, civil, and 
administrative recoveries.
    In my written statement, I provide additional details about 
four specific areas we believe the Department can achieve 
further cost savings and efficiencies: reducing duplication and 
improving coordination, optimizing grant and contract 
administration, addressing the Department's continually 
increasing prison costs, and enforcing the laws against fraud 
and financial offenses.
    Leading the Department in this climate of budget 
constraints will require careful financial management and 
significant improvements to existing operations. Focusing only 
on isolated operating efficiencies is unlikely to fully address 
the significant challenges of moving the Department from an era 
of expanding budgets into an era of flat or budget constraints. 
It is essential that the Department plot a new course for the 
current budgetary environment, one that streamlines the 
Department's operations, while simultaneously reevaluating the 
most important and fundamental questions about how the 
Department is structured and managed.
    The Office of the Inspector General looks forward to 
continuing its independent oversight of that effort and to work 
with the Department and the Congress as part of that effort.
    I am pleased to answer any questions that the Committee may 
have.
    [The prepared statement of Mr. Horowitz follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Sensenbrenner. Thank you, Mr. Horowitz.
    Mr. Maurer?

 TESTIMONY OF DAVID C. MAURER, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Good morning, Chairman Sensenbrenner, Ranking 
Member Scott, and other Members and staff. I am pleased to be 
here today to talk about the findings from a variety of our 
recent work looking at programs and activities at the 
Department of Justice. DoJ's law enforcement, national 
security, and criminal justice missions impact taxpayers every 
single day, and like other departments, DoJ faces a challenging 
budget environment.
    When you think of DoJ's budget as a pie, the two biggest 
slices by far go to the FBI and the Bureau of Prisons. These 
two agencies comprise $15 billion of DoJ's $27 billion budget, 
and in recent years, both have received steadily increasing 
resources. This reflects the FBI's central role in combatting 
terrorism and fighting crime and the continued increase in the 
size of the Federal prison population, which, as we reported, 
is expected to grow to more than a quarter of a million by 
2018. This will lead to a Federal system that contains 45 
percent more inmates than it was designed to hold.
    Given the current budget environment, it is likely that the 
overall size of DoJ's budget will at best remain roughly the 
same. But if the two biggest slices are growing, it means even 
greater pressure on everything else: grants, U.S. attorneys, 
DEA, ATF, and so on. Given this reality, it is especially 
important for DoJ to run its programs and activities in the 
most effective and efficient manner.
    DoJ still has work ahead on that front. Over the past year, 
we have issued a series of reports that collectively illustrate 
that DoJ can and should do a better job managing its resources 
and enhancing program efficiency. Our July 2012 report on DoJ's 
grant programs offers several examples. We assessed the extent 
of overlap and risk of duplication across more than 250 grant 
programs that ultimately led to 11,000 grant awards. We found 
sometimes significant overlap. For example, 56 different grant 
solicitations managed by six different DoJ offices provided 
funding for victim's assistance and related research.
    Now, overlapping programs are not necessarily bad if the 
Department has good internal coordination and strategic 
visibility over the ultimate use of grant funds. Unfortunately, 
we found DoJ lacking in those key areas. We also found cases 
where DoJ was not aware it had awarded funds to the same 
recipient for similar purposes.
    The sheer number of different grant programs creates purely 
administrative challenges. For example, DoJ has a program to 
help local law enforcement agencies cover the cost of bullet 
proof vests. We found that this program had accumulated $27 
million in unspent expired grant awards, which is roughly equal 
to its annual appropriation. We recommended that DoJ de-
obligate these funds so they could be used rather than sit 
unused in an account.
    DoJ can also improve the efficiency and transparency of its 
asset forfeiture fund. Annual revenues from federally-seized 
assets grew from $500 million in 2003 to $1.8 billion in 2011. 
These funds are not appropriated. It is basically extra money 
that DoJ uses for a variety of purposes, such as covering the 
cost of program, reimbursing victims, and in some cases for DoJ 
programs and activities. For example, last summer, DoJ used 
$151 million of forfeited funds to help purchase the Thompson 
Correctional Center from the State of Illinois.
    Over the past several years, DoJ has annually generated 
more revenue from selling seizes assets that it spent. This 
means the fund accumulates money which DoJ carries over from 1 
year to the next. For example, at the end of of 2010, DoJ 
carried over $975 million to start 2011.
    Our work found that DoJ should be more transparent in 
explaining how it determines how much carryover is needed to 
cover planned costs. These calculations typically involve 
hundreds of millions of dollars in providing greater clarity 
would aid congressional decision making about DoJ's budget.
    In conclusion, let me stress one thing. We want DoJ to work 
well. We want the Department to get the most out of every 
taxpayer dollar that it receives, and I know that is something 
the Department is committed to as well. In fact, DoJ concurred 
with and is taking action to address every recommendation 
mentioned in my written statement. Over the coming months, GAO 
will be there to provide objective, nonpartisan oversight of 
the Department and report the findings from our work to the 
Congress.
    Mr. Chairman, thank you for the opportunity to testify this 
morning. I look forward to your questions.
    [The prepared statement of Mr. Maurer follows:]1

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you very much.
    Mr. Schatz?

           TESTIMONY OF THOMAS A. SCHATZ, PRESIDENT, 
               CITIZENS AGAINST GOVERNMENT WASTE

    Mr. Schatz. Thank you very much, Mr. Chairman, Ranking 
Member Scott, other Members of the Subcommittee. I very much 
appreciate the opportunity to be here today.
    This Committee's Subcommittee hearing is a good example of 
the type of oversight that every Subcommittee and Committee in 
the House should be conducting on a regular basis. As Dr. 
Coburn said, the problem is Members of Congress who tend to 
look at a problem and create a program rather than looking at a 
problem and determining whether or not the program already 
exists to solve that same situation. That is how overlap 
occurs. The agencies do not create the program. They come from 
Congress.
    Yesterday, the GAO issued its 3rd annual report on overlap 
and duplication. The 2011 and 2012 reports were estimated by 
Senators Coburn and Jeff Sessions to include programs that cost 
$400 billion annually. Therefore, there is little doubt that 
tens, if not hundreds, of billions of dollars could be saved 
through the consolidation or elimination of such programs.
    Recommendations to eliminate waste, fraud, abuse, and 
mismanagement are regularly provided by GAO, CBO, the IGs, 
President's budget, even the authorizing and appropriations 
Committee, as well as outside groups like think tanks, advocacy 
groups, and private sector companies. For example, since 1993, 
Citizens Against Government Waste has released Prime Cuts, a 
compendium of recommendations that emanate from both public and 
private sources. The 2013 edition of Prime Cuts includes 557 
recommendations that would save taxpayers $580.6 billion in 1 
year, and $1.8 trillion over 5 years.
    My written testimony and my statement today focus on 
programs within the Department of Justice, including the Edward 
Byrne Memorial Justice Assistance Grant Program, or JAG 
Program, the Community Oriented Policing Services Program, or 
COPS, the State Justice Institute, the Integrated Wireless 
Network Program, the Drug Enforcement Administration's Mobile 
Enforcement Team Program, and the FBI's light duty sedan fleet. 
The first three programs are included in Prime Cuts, and the 
latter three are all from the President's budget in 2011 and 
2012.
    Now, the GAO pointed out in a July 2012 report that 
approximately $33 billion has been appropriated to DoJ since 
2005 for more than 200 criminal justice grant programs. And 
certainly Dr. Coburn's chart indicates there is a tremendous 
amount of overlap and duplication in those programs.
    DoJ funds multiple programs like COPS, and in many 
instances, different programs perform the same functions. The 
CRS reported in September 2010 that the costs of the COPS 
program outweigh the benefits by more than a billion dollars. 
The current JAG Program itself is the result of a 2005 
consolidation of several DoJ grant programs. Nonetheless, JAG 
has been shown not to target funds to high priority uses, does 
not provide meaningful goals, and the grantees are not required 
to report on performance.
    President Obama has recommended suspending development of 
the Integrated Wireless Network Program, which was intended to 
address DOJs aging communications program. The program was 
started in 1998. It has cost $356 million over 10 years and has 
yet to achieve its intended results. And even for the Federal 
Government, that is a long track record of failure. The 
President's budget recommended existing commercial technology 
or leveraging communications platforms of DoJ partner agencies, 
such as Homeland Security or even State and local law 
enforcement agencies. Eliminating this program would save $103 
million in 1 year.
    The DEA created the Mobile Enforcement Team Program in 
April 1995 to attack drug trafficking organizations, and the 
teams were designed to be deployed on average for 6 months. A 
December 2010 audit by the DoJ IG found that ``Despite its 
name, the METs were not mobile.'' They were being operated 
mainly in metropolitan areas near DEA offices. The IG also 
found that the effects of MET deployments are transitory and 
perhaps poorly focused. Eliminating this program would save $31 
million in 1 year and $155 million over 5 years.
    In conclusion, wasteful spending is either caused by 
mismanagement of existing programs or the authorization of 
unnecessary or duplicative programs. The Justice Department 
enjoys oversight responsibility for the Department, and it is 
imperative that the Committee exercise its oversight on a 
consistent basis. In fact, it might even be worth considering 
establishing rules for House Committees that there are as many 
hearings on oversight as there are about how to spend money. 
Perhaps, then rather than just spending the money, we'll spend 
more time determining how well the money is spent.
    Thank you very much, Mr. Chairman. I appreciate the 
opportunity to testify.
    [The prepared statement of Mr. Schatz follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you, Mr. Schatz.
    Sheriff Stanek?

          TESTIMONY OF RICHARD W. STANEK, PRESIDENT, 
           MAJOR COUNTY SHERIFF'S ASSOCIATION (MCSA)

    Sheriff Stanek. Well, thank you, Chairman Sensenbrenner and 
Ranking Member Scott. I appreciate the opportunity to appear 
here before you today to discuss the spending priorities at the 
Department of Justice, including successful ways that the 
Department supports State and local law enforcement and the 
effective functioning of our criminal justice system.
    I am the elected sheriff of Hennepin County, Minnesota and 
am here today in my capacity as president of the Major County 
Sheriffs Association, whose membership is comprised of elected 
sheriffs from counties across this country with populations of 
500,000 people or more, representing a combined population of 
100 plus million Americans.
    The start of my 29-year career in law enforcement was as a 
police officer in the Minneapolis Police Department. I also had 
a chance to serve nearly a decade as an elected representative 
in the Minnesota State Legislature and was appointed by the 
governor as the Commissioner of Public Safety and director of 
Homeland Security in Minnesota.
    And let me start my testimony today by saying this, that 
some would suggest that the Federal Government has no 
legitimate role to play in supporting State and local law 
enforcement and the effective functioning of the criminal 
justice system. In truth, the Federal investment is a tiny 
portion of overall spending on criminal justice. According to 
an 2008 estimate by the Bureau of Justice Statistics, State and 
local governments invested $75.9 billion in police protection. 
The Federal Government that year contributed another $2.6 
billion, totaling just 3 percent. Today that contribution is 
about half of that amount, but the value and reach of the 
Department of Justice assistance grant programs far exceed that 
small investment.
    Now, we leverage the grant dollars to innovate, to test new 
ideas, to measure performance, and then to replicate what 
works. What I experienced with the Federal grant programs, my 
vantage point as the chief law enforcement officer of a large 
urban county of 1.3 million citizens, is not waste or 
duplication. Rather, I see the careful, smart, effective 
deployment of scarce resources, usually in partnership with 
State and local funding, to prevent crime, enforce our laws, 
partner with Federal law enforcement agencies, and protect 
victims.
    Now, Mr. Chairman, Members, crime is at an all-time low in 
this country, as low as the 1960's. And these grant programs 
are not the only reason for this historic and sustained drop in 
crime. But study after study have proven what we know to be 
true, that the innovative policing and other crime fighting 
tools tested and replicated, because of the Federal grant 
programs, have played a significant role, and we ignore those 
lessons at our peril.
    You know, crime in this country, including in rural areas, 
is increasingly driven by regional, national, and even 
transnational gangs and drug trafficking organizations. 
Fighting these crimes require sophistication and coordination 
across all levels of government in ways unheard of just a 
decade ago.
    State and local law enforcement officers are the first 
responders, the boots on the ground, so to speak, for everyday 
acts of crime, natural disasters, and acts of terror. We 
provide the foundation for every criminal investigation, 
including those that become Federal investigations.
    That Federal support is vital to our collective success, so 
to critics who say that the Federal Government does not have a 
role in supporting State and local crime fighting initiatives, 
I say the national government cannot afford to not have a role. 
The major purpose of the Department of Justice grant assistance 
programs is to spur innovation and to test and replicate smart 
and evidence-based practices. Over the past 20 years, we have 
implemented and fine-tuned intelligence-led policing, 
community-oriented policing, and other innovations, all of 
which were supported in part by a range of DoJ grant programs.
    Through these programs, and, yes, through DoJ supported 
training conferences, we learned from each other what works, 
and we were able to implement these successful approaches where 
they are needed.
    Finally, we have gotten better at doing our jobs together. 
With over 18,000 law enforcement agencies across this great 
country, cross jurisdictional learning cannot happen without 
the national government's assistance.
    And I would like to talk for a minute about the Byrne JAG 
Program specifically and the misunderstanding that arises when 
people hear that the grant program is flexible and can be used 
for the same purposes as other grant programs.
    The assumption seems to be that this flexibility is bad or 
allows for wasteful duplication. In fact, the opposite is true. 
It is not only entirely appropriate, but also critically 
important, to be able to draw upon several funding streams to 
create comprehensive initiatives. Because of Byrne JAG's 
flexibility, we can identify a need and craft a response, 
pulling resources from several sources if and when necessary.
    When homemade methamphetamine first exploded in the 
Midwest, we were without the tools to meet that challenge. It 
was because of Byrne JAG together with COPS and later drug 
courts and our set funding that we were able to address 
interdiction, pseudoephedrine tracking, treatment, and 
laboratory cleanup to get ahead of the trend, and if not 
eradicate----
    Mr. Sensenbrenner. Sheriff, your time has expired.
    Sheriff Stanek. Thank you, sir.
    [The prepared statement of Sheriff Stanek follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Okay. The Chair will recognize Members 
under the 5-minute rule, which will be enforced beginning with 
me.
    Mr. Lofthus, the Thompson prison was a white elephant, and 
the Department of Justice purchased it last October from the 
President's home State of Illinois. There is concern in the 
southern and southwestern part of my State about the Federal 
prison being purchased there. And this prison was purchased 
despite the fact that Congress opposed its purchase, and the 
fact that DoJ has formerly constructed bureau prison facilities 
that currently sit idle awaiting full funding for operation.
    Now, with the sequestration there were originally problems 
with the number of prison guards at the existing prisons. Why 
do we have five prisons sitting empty?
    Mr. Lofthus. Thank you, Mr. Chairman. I will start by 
saying that we bought Thompson because we needed the high 
security bed space for the Federal prison. BOP needs high 
security bed space. It is 52 percent overcrowded in the high 
security level.
    Thompson prison is twice the prison for half the price that 
we could construct a prison for. This is exactly the type of 
thing the Department ought to be doing, and that is getting 
value for the taxpayer----
    Mr. Sensenbrenner. Okay. Well, we have got four other 
prisons that are sitting empty that apparently are not as high 
a priority. Does the Bureau of Prisons intend to sell them?
    Mr. Lofthus. No, we do not, sir.
    Mr. Sensenbrenner. Why not?
    Mr. Lofthus. Because two of those prisons actually are 
already open. We have inmates at the Berlin, New Hampshire 
prison, and we have inmates at the Aliceville, Alabama prison. 
Both those institutions have begun taking inmates. They have 
between 140 and 170----
    Mr. Sensenbrenner. At what percent of capacity are each of 
these prisons that are open?
    Mr. Lofthus. They are both just starting up. They were 
finished last year, and now they are----
    Mr. Sensenbrenner. Give me a percentage, please.
    Mr. Lofthus. Excuse me?
    Mr. Sensenbrenner. Give me a percentage of capacity, 
please.
    Mr. Lofthus. Let us see, just off the top of my head, 
approximately 10 percent, but that is because we are just 
starting----
    Mr. Sensenbrenner. Okay. So we have got a fully staffed 
prison at 10 percent capacity. What about the other two that 
are sitting empty. Are you going to sell them or are you going 
to put those at 10 percent capacity with fully staffed?
    Mr. Lofthus. One prison was just finished, and the second 
prison, which is Yazoo City, Mississippi, has not yet been 
finished and it has not yet been delivered. We expect that to 
be delivered in June. So the reason that prison is empty is 
because it is still being put into final construction to be 
turned over to the prison so they can start----
    Mr. Sensenbrenner. Okay. So we have three prisons that are 
empty or will be empty when they are delivered, and we have two 
other prisons at 10 percent capacity. That is not very 
efficient. You have got to admit that.
    Mr. Lofthus. Well, I think the thing to focus on is the 
Bureau of Prisons is 37 percent overcrowded overall.
    Mr. Sensenbrenner. But how come there have not been people 
transferred from the overcrowded prisons to the ones that are 
at 10 percent capacity?
    Mr. Lofthus. We need--because we just brought these prisons 
online. We just got the activation money for the prisons. And I 
would like to thank the Congress for funding in the Fiscal Year 
'13 full year enacted bill that was just received on March 
26th, that full-year funding bill has provided us activation 
money to completely activate and fill those first two prisons, 
Mr. Chairman, and activate the second two prisons. So all four 
of those prisons are going to come online. All four are going 
to be used. And we would like to activate that Thompson prison 
as well. I look forward to the opportunity to get activation 
money for Thompson because----
    Mr. Sensenbrenner. Well, you know, are there different 
strokes for different folks? We activate four prisons, but we 
do not have the activation money for a prison in the 
President's home State, which the Federal Government bought 
despite the Congress' opposition. Now, does that mean anything 
in the Justice Department that Congress is opposed to it?
    Mr. Lofthus. We bought the prison, sir, because of the need 
for high capacity bed space, and I am optimistic that with the 
release of the President's budget, we will be able to at some 
point get activation funds for the Thompson prison.
    Mr. Sensenbrenner. Do you propose transferring terrorists 
from Guantanamo to that prison?
    Mr. Lofthus. There are no plans to move anyone from 
Guantanamo.
    Mr. Sensenbrenner. What if Congress tells you you cannot do 
it. Are you going to do it anyhow?
    Mr. Lofthus. The Attorney General has been on record that 
no one will be moved from Guantanamo, and Congress has enacted 
prohibitions that preclude us from moving anybody from----
    Mr. Sensenbrenner. Well, we said you should not buy that 
prison, and you went ahead and did it.
    I yield back the balance of my time.
    The gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you. Mr. Lofthus, to follow that up, could 
you activate the prisons without the appropriations?
    Mr. Lofthus. No, sir. We wait for the activation funding, 
and that is important. It is important----
    Mr. Scott. Are you saying that the reason you did not 
activate it was because Congress had not appropriated the 
money?
    Mr. Lofthus. We need activation money to open those 
prisons, that is right.
    Mr. Scott. Mr. Maurer, we were talking about overlapping 
programs. I would just note that Congress in Homeland Security 
has overlapping programs itself. You mentioned more than 200 
programs in the Department of Justice. Did the Department of 
Justice invent these programs, or did Congress pass those 
programs?
    Mr. Maurer. All those programs were enacted under 
congressional legislation, so the situation is created by the 
Congress.
    Mr. Scott. Say it again?
    Mr. Maurer. Congress passed the laws to create those 250 
programs. The challenge the Justice Department faces is 
managing 250 separate programs.
    Mr. Scott. That were created by Congress?
    Mr. Maurer. That is correct.
    Mr. Scott. Hmm. Mr. Lofthus, on the SAFE Program, do rank 
and file members have access to offer recommendations that 
could be considered by the SAFE Program?
    Mr. Lofthus. Absolutely. Absolutely. That is one of the 
things we value, the fact that people outside financial 
management, it is not a small, closed group of budgeters who 
are making those recommendations. People from all over the 
Department can submit suggestions to the Attorney General. And 
the SAFE Council has quite a broad spectrum of people 
participating from across the Department.
    Mr. Scott. Thank you. And, Sheriff Stanek, you talked about 
overlap, and you got cut off as you were talking about overlap. 
I imagine if you have a special focus on disabled and another 
special focus on veterans, another special focus on women, you 
might find a disabled woman veteran that would qualify for all 
three. Is there anything necessarily wrong with overlapping 
programs, as long as a person does not get overlapping 
individual services?
    Sheriff Stanek. Mr. Chair, Members, I think that is 
absolutely correct. We do not purposely or intently go out to 
overlap services, but rather we take funding from different 
streams. Some are granted toward probation. Some are granted 
toward law enforcement, some to the courts, some to the 
judiciary. Together, we put those grant monies together and 
then figure out a way to best deliver the service that the 
individual needs or the prevention program that we are focusing 
on.
    Mr. Scott. Is it possible that one agency might actually be 
well suited to administer more than one program?
    Sheriff Stanek. Mr. Chair, Members, that is correct. And a 
brief example that might be downtown Minneapolis. We provide 
safe zone coverage. During the summer, crime seems to spike, 
particularly outdoors. And so the sheriff's office provides 
patrols. Minneapolis police provides patrols. We bring in folks 
from probation, corrections. Those are different funding 
streams. We have distinctly different jobs, and lanes, and 
boundaries that we stay within, but we work together to prevent 
crime and help educate folks.
    Mr. Scott. Is it possible that one agency administering 
more than one grant program might actually do it more 
efficiently than separate agencies trying to administer 
separate programs?
    Sheriff Stanek. Mr. Chair, Members, that is also correct, 
and an example of that would be through our task forces. A lot 
of times you will have multiple agencies. I have 46 cities and 
37 law enforcement agencies in my county alone. We operate five 
different task forces that geographically cover our county. 
Even though each one of those task forces are made up of three 
or four, five, six different law enforcement agencies, we have 
one law enforcement agency that provides the oversight, the 
fiscal guidance, so that it is done the right way and that 
there is consistency across the board.
    Mr. Scott. Thank you. Mr. Maurer, can you talk a bit about 
the effect that wholesale furloughs have on the ability of 
agencies to fulfill their missions?
    Mr. Maurer. Well, we have not done any published work 
looking specifically at that. But as a general proposition, 
furloughs make it more challenging for every department and 
every agency to carry out their mission. And they are all 
handling it in different ways.
    Mr. Scott. Are you likely to lose your best employees when 
you do furloughs?
    Mr. Maurer. Well, it certainly does not make a good 
recruiting calling card if you are having to contend with 
furloughs.
    Mr. Scott. Mr. Lofthus, are there any special security 
concerns about traveling by the Attorney General and FBI agents 
that cost money?
    Mr. Lofthus. In terms of the furloughs?
    Mr. Scott. No, in terms of traveling. The Attorney General 
traveling, are there security concerns that cost money?
    Mr. Lofthus. You are are talking about the use of aircraft?
    Mr. Scott. Sure.
    Mr. Lofthus. Yes, absolutely. The first thing to know about 
use of executive aircraft at the Department of Justice is that 
mission operations always come before any executive travel. 
With all the FBI aircraft, mission operations come first. 
Whenever the planes are used for executive travel, the Attorney 
General's travel on government aircraft is in complete 
compliance with the 1993 OMB Government Aircraft Circular, 
A126, and related policies and threat assessments.
    The Attorney General is what is known as a required use 
traveler for both official and personal travel, and he is one 
of at least six cabinet members or other senior government 
officials in this category. The Attorney General's travel 
follows the longstanding OMB rules, and just as we did for 
prior attorneys general, this Attorney General completely 
follows the A126 aircraft rules when he uses those aircrafts.
    To the specific point of your question on the security 
concerns, the FBI puts those planes mission first before any 
executive travel.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from Alabama, Mr. Bachus.
    Mr. Bachus. Thank you. Mr. Lofthus, the Department of 
Justice budget is over $27 billion. I think we all recognize we 
face a difficult budget situation with a lot of needs and not 
enough money. Can your Department support a simple 2 percent 
reduction in your budget request for Fiscal Year 2014?
    Mr. Lofthus. I am very concerned with that reduction for 
our budget in Fiscal Year 2014. I am very concerned with the 
reduction that we just took because of sequestration. The 
figure has already been said in this hearing about the $1.6 
billion reduction. Next year we face $2.2 billion in reductions 
if nothing changes.
    And to give you an idea of the magnitude of that reduction, 
if we take that $2.2 billion reduction at the Department of 
Justice, that puts our budget back to the size it was in 2009. 
We had over 7,000 fewer employees--FBI agents, prosecutors, 
correctional officers. We had over 7,000 fewer positions in 
2009, and that is the reduction that we face in Fiscal Year 
2014 if the lower levels stay in place. So it is very 
concerning.
    Mr. Bachus. Are there any expenditures that you are 
prepared to cut?
    Mr. Lofthus. Absolutely.
    Mr. Bachus. Can you share with the Committee some of those 
where you do believe you can cut expenses? And would you share 
those materials with the Committee to make a brief response to 
my----
    Mr. Lofthus. Absolutely. We would be happy to share all the 
materials with you.
    I can say three fast examples of things we have cut. In 
travel, we have taken a hard look at cutting back travel, our 
travel charges. We are $45 million less this past year than 
they were in 2010. We are taking efforts to consolidate our e-
mail systems, and we will save over $3 million a year by Fiscal 
Year '15. The last example I will give you is something that my 
colleague here at the table, the IG, and I have worked on 
together. Our staffs came up with a way to do the financial 
audits more efficiently. It saves $4 million a year, and that 
has been implemented this year.
    So we are looking across our contracts, across our training 
to save money.
    Mr. Bachus. You know, Mr. Maurer's testimony, he said they 
made several recommendations to DoJ in prior reports to help 
improve program efficiency and resource management, and that 
you, the Department, has concurred with those recommendations. 
And I think he has outlined, you know, hundreds of millions of 
dollars of recommendations. And you have concurred with those 
recommendations, right?
    Mr. Lofthus. That is right. And I can give you a couple of 
examples.
    Mr. Bachus. In terms of where you can cut going forward.
    Mr. Lofthus. Well, where we can look for opportunities to 
coordinate better and run the programs more efficiently. The 
asset forfeiture recommendations that we received from GAO I 
think are good ones. And we and Treasury are working together 
to see what can come out of that opportunity. Along our grant 
programs, we do want to look across COPS, OBW, and OJP for any 
efficiencies we can get out of those programs.
    Mr. Bachus. What about consolidating those grant award 
operations, which has been recommended time and time again?
    Mr. Lofthus. In terms of consolidating the grant programs 
overall, those grant programs were basically authorized by 
Congress at different times under three different statutes, and 
they exist separately today. We try to make those programs 
complementary.
    But I would like to address one thing if I may, and that is 
the idea that these programs are somehow duplicative and 
wasteful because they sound similar. It is important to keep in 
mind that even though there are DoJ programs specialized in 
their respective areas, given the broad nature of their 
missions, there can be programs that touch each other for 
legitimate purposes or appear to overlap on their face, but, in 
fact, serve very different purposes. We have gotten our grant 
programs to look together on how they can make sure they do not 
overlap.
    But let me give you one example.
    Mr. Bachus. Well, let me ask you, and if you could maybe 
supply that. I have seen several instances where a local agency 
received several grants to do the same activity. Surely we can 
improve on that.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Sensenbrenner.
    Could I allow a response to the last question by my 
colleague? Could you take that, Attorney General Assistant 
Lofthus?
    Mr. Lofthus. Absolutely. Absolutely. We do want our 
programs to work together , and make sure we do them 
efficiently, and that we are not giving out money or the same 
thing out of multiple offices. That is very important to us.
    But let me give one example of why sometimes this can be 
misleading when it sounds like we have duplicative programs, 
and I will use the example of victim's grants. Not all victim's 
programs belong necessarily in the Office of Victims of Crime. 
Some of the Department victim support programs support 
counseling for victims. Others train counselors. Others provide 
training for law enforcement personnel who are first responders 
at the crime scene for victims of crime. Some programs provide 
training to forensic specialists who help examine crime scenes 
in order to solve crime.
    DoJ's victims programs are very specialized, they are 
multidimensional, and they are not duplicative mirror images of 
one another. It is important to recognize that programs that 
may sound the same actually fulfill very different functions 
across the broad spectrum of victim services and other criminal 
justice assistance that we provide State, local, and tribal.
    Mr. Conyers. Thank you so much. Let me ask the inspector 
general----
    Mr. Bachus. If I could respond. You know, a $10,000 pizza 
party is a $10,000 pizza party. I mean, you can----
    Mr. Conyers. Well, wait a minute.
    Mr. Bachus. But anyway----
    Mr. Conyers. Yeah, I think we ought to----
    Mr. Sensenbrenner. The time belongs to the gentleman from 
Michigan.
    Mr. Conyers. Let me just ask the Attorney General, Mr. 
Horowitz, do you think that this hearing has helped clear up 
some of the confusion with regard to the over capacity issue in 
the prisons and the fact that there are some vacancies in some 
prisons?
    Mr. Horowitz. Well, I think in terms of prisons, the 
Federal prisons, their capacity issues, there is frankly a 
broader issue that we have identified in our management 
challenges for the Department, which is how it is going to 
address what it itself since 2006, 7 years running now, has 
identified as a material programmatic weakness.
    Mr. Conyers. Which is what?
    Mr. Horowitz. Which is prison overcrowding. The prisons 
were in 2006 30 percent overrated capacity. In 2012, 7 years 
after identifying that as a material weakness, programmatic 
weakness, prison capacity is 38 percent overrated capacity. It 
is not getting better. It has gotten more overcrowded.
    And by the Department's own estimate in its 2012 corrective 
action plan, it has focused again on getting more funding more 
prisons. Obviously that is a question for Congress whether 
Congress will, in fact, fund more prisons.
    Mr. Conyers. Well, you know, that assumes that the rate of 
incarceration is going to be steady and that we can 
statistically project that out over the years. It is no secret 
that this country incarcerates more people than any other 
country on the planet, and that may have something to do with 
it.
    Do you, Sheriff Stanek, wish to weigh in on this discussion 
that I am having between the IG and the Attorney General?
    Sheriff Stanek. Mr. Chair, Member, in terms of of 
replication or duplication of services or----
    Mr. Conyers. Well, either one of these issues. The fact 
that we are incarcerating more people means that we are going 
to need more capacity. And even now we are over capacity by 45 
percent even with the new prisons that are under construction. 
So I think this is an important hearing in that regard, but we 
cannot call in and say, let us get the numbers down or let us 
get the buildings up, and let us get them fully occupied.
    Sheriff Stanek. Well, Mr. Chairman, Members, if you are 
asking me that question, I would be happy to comment ever so 
briefly, and that is, you know, I think local law enforcement 
across this country can save you a whole heck of a lot money. 
Help us on the front end in terms of prevention and education 
and the grant programs that come through the Department of 
Justice that help us in that respect so we do not have to use 
prison at that last stop gap measure. We would rather get to 
them on the front end and deal with them early on through 
prevention and education.
    Mr. Sensenbrenner. The gentleman's time has expired.
    Mr. Conyers. Thank you very much.
    Mr. Sensenbrenner. The gentleman from North Carolina, Mr. 
Coble.
    Mr. Coble. Thank you, Mr. Chairman. Mr. Chairman, I had a 
conflict. I wanted to be here when the Thompson matter was 
discussed. I am sure that has been thoroughly exhausted, and I 
will try to play catch up ball on that.
    Good to have you gentlemen with us today.
    Mr. Maurer, the GAO's report on grant duplication speaks a 
lot about how each of the three DoJ grant-making offices have 
different backroom functions. For example, OJP and COPS are 
overseen by the Department's Internal Oversight Office, but OVW 
has contracted these functions out to 3rd parties.
    Do you believe that combining the three grants offices 
would lead to a better oversight and coordination approach, and 
are there efficiencies lost by having separate offices 
involved?
    Mr. Maurer. Thank you for the question. Clearly there are 
inefficiencies that result from having different backroom 
functions and different oversight mechanisms for the three 
major offices. Our report highlighted two main areas. The first 
is there are two different information systems that basically 
track all the different grant programs. They do not talk to one 
another. And what that means is when people within the 
Department are making decisions on where to provide grant 
funding, they cannot easily look into the other system to 
determine if the same grant recipient has already received 
funds from another source. We recommend that the Department 
address this problem, and it is starting to take action to do 
so.
    The second area is one you rightfully point out is this 
issue of oversight. There is an office that provides oversight 
over OJP and COPS programs that do not provide oversight over 
OVW programs. We recommend to you that the Department consider 
providing a consistent level of oversight across all three 
program offices, and the Department is in the process of 
considering that right now.
    Mr. Coble. And I presume, Mr. Maurer, that this is advice 
duplication, is it not?
    Mr. Maurer. It certainly involves the risk of duplication. 
That was a main finding from our report from last year with so 
many programs with such a lack of internal coordination, with a 
lack of strategic visibility of how the funds are ultimately 
going to be reused. It raises the possibility that duplicative 
streams of money can go to the same grant recipient, and that 
was our primary concern.
    Mr. Coble. Thank you, sir. Mr. Lofthus, a GAO report found 
that a large number of law enforcement agencies used Byrne JAG 
and not just COPS hiring funds to hire police officers. I am 
talking about consolidation again now. Why do these overlapping 
programs need to be administered by a separate office? Would it 
not be more cost effective to merge grants that fund the same 
or similar functions?
    Mr. Lofthus. Well, that was one of the recommendations in 
the recent GAO report that the Department look more closely at 
the operation--at the opportunities, rather, to see if we can 
consolidate programs or work cooperatively where they are 
complementary, to eliminate the possibility for that type of 
duplication if it exists.
    And we have started those discussions across the 3 
programs, and if there is something we can do better, we are 
clearly interested in it.
    Mr. Coble. Any other witness want to weigh in on this? Mr. 
Horowitz?
    Mr. Horowitz. From our perspective, we agree completely 
with what GAO has found. We have highlighted this as a concern 
as well. Congress has created the three grant-making agencies, 
but that does not mean you cannot consolidate the backroom 
operations so that each of the agencies know what each other is 
doing regularly. And you can have effective, strong practices 
across three rather than three different practices.
    Mr. Coble. Thank you, sir. Thank you, gentlemen, for being 
with us.
    I yield back, Mr. Chairman.
    Mr. Sensenbrenner. Thank you. The gentleman from Louisiana, 
Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman, and thank you to our 
panelists.
    Let me just start and clear up what Mr. Lofthus said, and I 
think Congressman Scott, Ranking Member Scott, touched on it. 
But I would like it to be crystal clear because I think that 
part of my issue with a lot of the hearings in here is that we 
shoot for a sensational title with no meat to back it up. So as 
we talk about this, these luxury air jets, can the AG fly 
commercial if he wanted to?
    Mr. Lofthus. Under the current A126 OMB Circular that 
designates what required use travel is, and required use travel 
pertains to both official and personal travel, based on the OMB 
Circular and based on related executive branch policies----
    Mr. Richmond. Is that a long way to get to yes or no?
    Mr. Lofthus. That is a long way to get to yes. To your 
question, the AG is supposed to fly on secure means of 
transportation, and that is in accordance with the government-
wide policy.
    Mr. Richmond. How does his travel compare to the Attorney 
General before him?
    Mr. Lofthus. He follows precisely the same policies we had 
in place for the predecessor attorneys general in the 
Department of Justice.
    Mr. Richmond. My information tells me that he flies about 
half of the time that the prior Attorney General did for 
personal use.
    Mr. Lofthus. That is right.
    Mr. Richmond. So it is a 50 percent reduction.
    Mr. Lofthus. You are referring to personal trips.
    Mr. Richmond. Yes.
    Mr. Lofthus. That is a----
    Mr. Richmond. Let me switch over to Mr. Maurer for a 
second. We are talking about cost, and I know that in my home 
State where I chaired Judiciary even in a Republican 
legislature with a Republican governor, to find reductions, we 
looked at good time in our prison. And according to you all, if 
we would increase good time simply by 7 days a year, we could 
save about $40 million. Do you remember that as being an 
accurate number?
    Mr. Maurer. Yes, that is correct. That was in one of our 
reports issued last year.
    Mr. Richmond. And if we could reduce our prison population 
by about 10 percent, whether it is through creative sentencing, 
alternatives to incarceration, deferred adjudication, we could 
save the country about $650 million a year. Is that about the 
number you remember?
    Mr. Maurer. Yeah, that is a good ballpark. That is about 10 
percent of BOP's current budget. That is correct.
    Mr. Richmond. So, and I guess my point is that if we look 
for ways to fight crime either on the front end or alternatives 
to the traditional theory of just locking people up, then we 
can fight crime in a smarter, more efficient way, but also have 
a significant amount of resources to do other things.
    Mr. Maurer. That is absolutely correct. There needs to be a 
whole spectrum. You need to address crime on the front end. 
There may opportunities to look at sentencing legislation. 
There may be opportunities to look at increased flexibilities 
for people who are already currently in the system. There may 
be opportunities to look at reentry programs that would be 
implemented by Justice, HHS, Labor, and other agencies at the 
Federal level.
    A lot of this obviously rests with the Congress. You know, 
GAO cannot and is not going to take an opinion on the right way 
to go, but we think our work helps set up a useful debate on 
this important subject.
    Mr. Richmond. Thank you. Mr. Horowitz. Question: within the 
Attorney General's office, they have their own Office of 
Professional Responsibility that is charged with investigating 
attorney misconduct and things of that nature. And you cannot 
touch that, right?
    Mr. Horowitz. That is correct. By statute, the IG Act, we 
are unique in that regard. Most inspector generals have the 
ability to oversee the conduct of all the employees in the 
Justice Department. There is a carve out Congress has put in 
the IG Act for the Justice Department inspector general. We 
cannot look at attorney misconduct in the course of their work.
    Mr. Richmond. So the Office of Professional Responsibility 
that reports to the Attorney General is charged with 
investigating the acts of assistant attorney generals and the 
Attorney General.
    Mr. Horowitz. That is correct.
    Mr. Richmond. Even though they report to him.
    Mr. Horowitz. That is correct.
    Mr. Richmond. And I do not want to put you on the spot, but 
I saw the testimony from other attorneys generals that 
suggested that you could save duplication, you could have more 
transparency, more efficiency, if you put all of that under 
your portfolio. Would you agree?
    Mr. Horowitz. Yeah. That has been consistently the position 
of our office. My predecessor, Glenn Fine, spoke extensively on 
this, pointing out that we are one of the few, if only, 
inspector general's offices that cannot review all of the 
misconduct that is presented regarding Department employee 
work.
    Mr. Richmond. And to Mr. Schatz and Mr. Stanek, I agree 
with you, Mr. Schatz--I am sorry--when you talk about we need 
to look at a more cost benefit analysis and return on 
investment, the money we spend.
    I see that my time has expired. I would just add that I 
think the COPS program substantially outweighs the cost, the 
benefits.
    Mr. Sensenbrenner. The gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman. I want to thank our 
witnesses.
    Mr. Horowitz, you had a very distinguished career as a 
prosecutor in the Southern District of New York, so I want to 
see if you can help me work my through a quote. And it is not a 
quote from you, so it may be problematic for you to help work 
our way through it.
    The quote is, ``Federal prosecutors will have to close 
cases and let those criminals go.'' That is a quote from the 
President of the United States with respect to sequestration. 
And I am wondering who he was talking about, ``those 
criminals,'' because if it is an open case in a U.S. attorney's 
office, we would typically refer to those folks as defendants 
as opposed to criminals, do we not?
    Mr. Horowitz. That is correct. If it is a charged case, 
they are a defendant.
    Mr. Gowdy. So who are ``those criminals'' that the 
President was referring to when he was invoking the hell back 
comment apocalypse talking about sequestration? Do you have any 
idea who ``those criminals'' would be?
    Mr. Horowitz. I do not, Congressman.
    Mr. Gowdy. I think your former colleague from the 
Department of Justice testified that if sequestration were to 
go into effect, it would take us back to 2009 funding levels. 
Did I hear the testimony correctly?
    Mr. Lofthus. Yes, sir.
    Mr. Gowdy. How many criminals were let go in 2009?
    Mr. Horowitz. I am not aware of criminals being let go. I 
was not in the Justice Department at the time.
    Mr. Gowdy. How about the gentleman from the Department of 
Justice? Any criminals let go in 2009?
    Mr. Lofthus. That is not something I can answer this 
morning, sir.
    Mr. Gowdy. Well, I think we would have heard about it if a 
bunch of criminals were let go due to a lack of funding, do you 
not? I mean, we would not need a congressional hearing for 
that. We would have all heard about that.
    Mr. Lofthus. The resources that are provided to the United 
States attorney's organization influences the staffing, and the 
prosecutions, and the paralegals we have.
    Mr. Gowdy. Well, I know that actually. And we had furloughs 
in South Carolina. We had to furlough prosecutors. We had to 
furlough victim advocates. We had to furlough administrative 
assistants, investigators. Not a single, solitary criminal case 
was closed because of those furloughs.
    So what I am trying to get at is the irresponsibility of 
threatening, whether it is the Attorney General saying we are 
going to be less safe or the President saying we are going to 
let those criminals go because we cannot survive on 2009 
funding levels. So when sequester went into effect, the net 
result, the net impact on DoJ's budget was, what, about a 
hundred million?
    Mr. Lofthus. The net impact of sequestration was $1.6 
billion this year.
    Mr. Gowdy. No, no, no, I am talking about salaries and 
expenses, the salaries and expenses, because that is what would 
impact whether or not cases had to be closed and criminals let 
go, is about $100 million.
    Mr. Lofthus. I would have different numbers than that. I am 
not sure I----
    Mr. Gowdy. Well, let us assume for the sake of argument 
that I am right. Just assume arguendo I am right. Are you 
telling me there is no other place to save $100 million within 
DoJ's budget?
    Mr. Lofthus. Our problem is we have to save $1.6 billion, 
and that will be comprised of both----
    Mr. Gowdy. I want to focus on the United States Attorney's 
Office, that line item, salaries and expenses, because the 
quote was cases are going to be dropped and criminals are going 
to be let go.
    Mr. Lofthus. From a chief financial officer perspective, 
this is the way I would look at the issue that you are raising 
this morning. When we take the sequestration cut to the U.S. 
attorney's organization, you are right, they have the ability 
and frankly they are going to have to look at taking cuts 
across the spectrum of their budgets. That includes their 
personnel, their salaries, and their benefits.
    Mr. Gowdy. What is a SAUSA? What is a special assistant 
U.S. attorney?
    Mr. Lofthus. What is a special assistant attorney?
    Mr. Gowdy. Yeah.
    Mr. Lofthus. An ordinary prosecutor is known as an 
assistant United States attorney.
    Mr. Gowdy. Right, and a special would be a State prosecutor 
that maybe was on loan or, in some instances, some folks just 
volunteer to work for the U.S. attorney's office for the 
experience. And they do so for free, agreed?
    Mr. Lofthus. You can have a special AUSA.
    Mr. Gowdy. Okay. And they would be free in some instances.
    Mr. Lofthus. They could be.
    Mr. Gowdy. All right. How much did you spend on conferences 
last year?
    Mr. Lofthus. How did we spend on conferences last year? 
About $54 million approximately.
    Mr. Gowdy. And how many of those conferences were for CLE 
credit that could not be gathered any other way than attending 
a conference?
    Mr. Lofthus. I do not have that information at the table 
with me. We would have to get back to you.
    Mr. Gowdy. Can you get CLE credit so you can keep your law 
license via the Internet?
    Mr. Lofthus. That I do not know.
    Mr. Gowdy. Well, you can.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Virginia, the Chairman of the full 
Committee.
    Mr. Goodlatte. Thank you very much, Mr. Chairman.
    Mr. Horowitz, in your testimony you say that the structure 
of the DoJ grant-making offices has led to inefficient 
duplication. Would you support combining the three offices so 
that administrative functions like legal and management support 
could be streamlined? And do you think this would save money 
for the Department and get more money out to the field?
    Mr. Horowitz. I think from our standpoint, we agree with 
GAO as well on this, that there needs to be streamlined 
backroom operations, administrative, legal. It not only would 
save costs from an administrative standpoint, but frankly from 
an effectiveness of grant management. Each of the three 
agencies would know what each other is doing. When we issue an 
audit about a grant-making event that occurred in one of the 
three, all three would have the same information sitting in 
front of them if their operations were the same in the 
backroom.
    Mr. Goodlatte. Mr. Lofthus, you have heard the IG. You have 
heard the GAO. Does the Department support consolidating these 
three offices?
    Mr. Lofthus. We have not reached any conclusion on 
consolidating the three offices. We recognize that the three 
offices were created at different times under different 
statutes enacted by Congress.
    What we do agree with is the fact that the recommendations, 
I think, that were made to us are sound recommendations, and 
that OJP, OVW, and COPS have already begun to work together to 
look at opportunities where they can cooperate better, 
coordinate. And that includes the backroom functions, 
potentially using IT systems that are complementary, or using 
the same systems. So those things are on the table for us now 
as a result of those recommendations, and we are happy to look 
at what is feasible.
    Mr. Goodlatte. What is your timetable for that, because we 
would be very interested in knowing what the Department 
recommends on these, though some of these proposals may require 
legislation to authorize a different approach. And we are 
anxious to act in ways that would help the Department more 
efficiently. Do you have a timetable for making recommendations 
to us that both look at what the inspector general has found 
and what you have in your own administration of the Department 
found that would require some action on our part? Or are you 
planning to take action on the part of the Department in a 
reasonably prompt fashion, especially considering that you have 
been now confronted, as has the rest of the Federal Government, 
with the need to save money due to sequestration?
    Mr. Lofthus. Congressman, I know the front end of that 
timetable better than I know the back end of the timetable, 
meaning we have started. We have already started to meet and 
work together to see what can be done. So I know we have 
started.
    As to when we will finish, I do not have that at the table 
here this morning, but I am happy to talk to the grant 
organizations and see what the realistic timetable is.
    Mr. Goodlatte. Well, going back to the concerns raised by 
the gentleman from South Carolina about decisions made, for 
example, to release people who are scheduled for deportation, a 
considerable percentage of whom were criminal aliens, it would 
seem to me that the sooner you do that, the sooner you will 
feel less pressure to make decisions like that and more able to 
make decisions that enhance the efficiency of the Department 
and make it more effective at addressing law enforcement 
issues, and not be forced to make decisions that I do not think 
you should have made in the first place. But nonetheless, the 
decision was made.
    If you are finding savings that make sense, you do not have 
to make decisions to achieve savings that in the minds of many 
Americans do not make sense.
    Mr. Lofthus. I think that certainly from my seat as the 
financial officer, and I think from the seat of the Attorney 
General and the Deputy Attorney General, there is an absolute 
immediacy to the financial issues facing the Department and the 
issues being raised here this morning.
    Mr. Goodlatte. Thank you very much.
    And let me ask Mr. Maurer, the mission of the COPS office 
is to assist law enforcement agencies in enhancing public 
safety through the implementation of community policing 
strategies. To what extent do you believe, based on your 
experience in examining COPS hiring grants that these grants 
specifically support the advancement of community policing? Do 
you believe that the effectiveness of these grants is being 
accurately measured?
    Mr. Maurer. We currently have work under way for you right 
now looking specifically at that question, and we will be 
expecting to report on that within the next several weeks, and 
we will get back to you on the answers. But generally speaking, 
those are good, valid questions, and we look forward to issuing 
our final report later on the spring.
    Mr. Goodlatte. In other words, our effort here with these 
programs has been to enhance law enforcement, not to replace 
what has traditionally been the local and State funding sources 
for local law enforcement. We do not want that simply to result 
in the replacement of dollars coming at the State level for 
money that makes a trip to Washington and then back down to the 
States. We want to see something for it. And we would welcome 
your input and your report as soon as possible.
    And I would ask if the Chairman would allow Mr. Horowitz to 
see if he has any insight on the same point.
    Mr. Sensenbrenner. Without objection.
    Mr. Horowitz. We have not done any particular work in that 
area, but we again, when we do work and GAO does work, we 
coordinate with each other. So we are looking forward to 
getting their report on this and following up as we deem 
appropriate once we get that report.
    Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. Thank you, witnesses. 
Thanks for being here.
    I was amazed during a hearing we had with the director of 
ICE to find out about the prosecutions involved in going after 
people who have reentered the United States after being 
deported. Do any of our witnesses know what the percentage of 
total prosecutions by the Justice Department is for people 
illegally entering the country?
    Mr. Lofthus. I do not.
    Mr. Gohmert. Well, I was shocked when my friend, Zoe 
Lofgren, brought up that the number one area of most 
prosecutions was with regard to people illegally entering this 
country. 34.9 percent of the prosecutions we were told were for 
people who illegally entered the country, and a big hunk of 
that was people that illegally entered after being deported.
    So I am just wondering, is there any coordination between 
Justice Department and Homeland Security? I mean, the whole 
purpose for having Homeland Security was one stop shopping so 
that people would work together better. And I am just wondering 
about the relationship between the Department of Justice and 
the Department of Homeland Security, because it sure seems like 
if Homeland Security did their job, you have just freed up over 
a third of the budget you are having to use right now for 
prosecutions. That frees up a massive number of jail cells. You 
do not even need the prisons that you have purchased because 
you will have about a 30 capacity opened up for others besides 
those entering illegally.
    So I am wondering, what is the relationship with DHS? Is 
there any when it comes to prosecution and how they could save 
you so much money and time?
    Mr. Lofthus. Congressman, if I could start. As the chief 
financial officer, I will readily admit that I would feel more 
comfortable giving you the financial perspective on that rather 
than the law enforcement----
    Mr. Gohmert. Okay. Then if you are going to change my 
question, let me change the question itself. Do you know how 
much you would save if we had a secure border where we were not 
having to spend 34.9 percent of our prosecutions on people 
entering illegally?
    Mr. Lofthus. That is not a number that we have calculated. 
I certainly do not have it at the table. But what I can say is 
that we do look when we formulate our budget to see what is 
going on at DHS so that we have some sense of what is happening 
on the other side to withstand the change.
    Mr. Gohmert. But beyond looking at the budget, do you 
coordinate with them? You surely recognize how dramatic it 
would be the freeing up of prison space, of prosecutors, all of 
those type of things, if DHS would simply do the job of 
securing the border. And I do not mean closing it. I want 
immigrants coming. I am talking about people that come that we 
do not want coming in.
    Mr. Lofthus. There is no question we are very much aware of 
the front end work done by DHS and how it impacts the back end 
work that the Department of Justice, both on the prosecution 
side and the prison capacity side, not to mention the detention 
trustee portion of the budget or the detention portion of the 
budget in the Marshal Service.
    Mr. Gohmert. Well, I know there was discussion about the 
cost of flights, and that the comment we are doing same thing 
the prior Administration did when it came to personal flights. 
And I am sure the Bush Administration is pleased that this 
Administration is mimicking them in any regard. But it still 
deserves to be analyzed a bit.
    If it is a personal flight, like saying I am just going to 
see my kid play baseball, according to the policy, it is not 
law. It must be DoJ policy that the Attorney General must fly 
on a private plane, right?
    Mr. Lofthus. He is a required use traveler, that is right.
    Mr. Gohmert. Okay. And that is not because of law, but 
because of DoJ policy that you are following from the Bush 
Administration, correct?
    Mr. Lofthus. No, sir, it is not DoJ policy. It is executive 
branch policy under OMB Circular A126, 1993.
    Mr. Gohmert. Right, okay, but that is the point. It is not 
the law that we passed in Congress. This is the Administration 
saying we want you to fly privately, and then you can reimburse 
$420 for each $15,000 flight as an example of what it costs. 
But that is the executive branch's decision, in this case 
apparently agreeing with the Bush Administration. Is that not 
correct?
    Mr. Lofthus. It is an executive branch policy, that is 
right.
    Mr. Gohmert. Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired.
    I would like to thank the witnesses for their insightful 
testimony. I would like to thank the Members for their vigorous 
participation. This has been one of the more substantive 
hearings that I think we have had in trying to get to the 
bottom of all of this, how we can do oversight and how we can 
save money.
    The jurisdiction of this Subcommittee was changed to 
include investigations at the beginning of this Congress, and 
this Chairman has won awards for oversight, and I want to try 
to win another one.
    So without objection, the Committee stands adjourned.
    [Whereupon, at 11:46 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
